NO. 20-333
In the

Supreme Court of the United States
BOZEMAN FINANCIAL LLC,
Petitioner,
V.

FEDERAL RESERVE BANK OF ATLANTA, ET AL.
Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h) and 33.1(g)(ii), the Brief in Opposition
contains 7,524 words, excluding the parts of the petition that are exempted by
Supreme Court Rule.
Dated: November 25, 2020

Respectfully submitted,

Arn Jacobsen

